           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION


FOLLOW-UP: CHILDHOOD CONTINUING
     DISABILITY REVIEWS AND
    AGE 18 REDETERMINATIONS

    September 2011   A-01-11-11118




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                 SOCIAL SECURITY
MEMORANDUM

Date:      September 23, 2011                                                                   Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Follow-up: Childhood Continuing Disability Reviews and Age 18 Redeterminations
           (A-01-11-11118)


           OBJECTIVE
           The objectives of our review were to determine whether the Social Security
           Administration (SSA) (1) conducted childhood continuing disability reviews (CDR) at
           least every 3 years for children under age 18 whose impairments were likely to improve
           in accordance with the Social Security Act provisions; (2) conducted age
           18 redeterminations before recipients attained age 20; and (3) continued seeking
           special funding for CDR workloads.

           BACKGROUND
           Under Title XVI of the Social Security Act, 1 SSA is required to:

           1. Perform CDRs at least every 3 years on all children under age 18 whose
              impairments are likely to improve (or, at the Commissioner’s option, recipients
              whose impairments are unlikely to improve). 2

           2. Redetermine, within 1 year of the individual’s 18th birthday, the eligibility of any
              individual who was eligible for Supplemental Security Income (SSI) childhood
              payments in the month before attaining age 18, by applying the criteria used in
              determining initial eligibility for individuals who are age 18 or older. 3



           1
               Social Security Act § 1614(a)(3)(H), 42 U.S.C. § 1382c(a)(3)(H).
           2
               Social Security Act § 1614(a)(3)(H)(ii)(I), 42 U.S.C. § 1382c(a)(3)(H)(ii)(I).
           3
            Social Security Act § 1614(a)(3)(H)(iii)(II), 42 U.S.C. § 1382c(a)(3)(h), states age 18 redeterminations
                                                                                                 th
           are to be completed either during the 1-year period beginning on the individual's 18 birthday or, in lieu of
           a CDR, whenever the Commissioner determines an individual's case is subject to a redetermination.
Page 2 - The Commissioner


Our 2006 audit found that SSA had not completed all childhood CDRs and
age 18 redeterminations in a timely manner. 4 Based on our sample results, SSA did
not complete 39 percent of childhood CDRs and 12 percent of age 18 redeterminations
timely. 5 Additionally, we estimated SSA

•   paid about $194.7 million in SSI payments to approximately 205,900 recipients
    under age 18 who should not have been paid and

•   paid about $4.5 million in SSI payments improperly to approximately 5,600 recipients
    who did not have an age 18 redetermination completed by age 20.

As a result of our prior audit, SSA agreed to

1. conduct childhood CDRs at least every 3 years for children under age 18 whose
   impairments are likely to improve, in accordance with the Social Security Act
   provisions;

2. conduct age 18 redeterminations before recipients attain age 20; and

3. continue seeking special funding for CDR workloads.

To perform this follow-up review, we analyzed a file of about 1.5 million SSI recipients
who were receiving benefits in January 2011 and identified

•   653,478 recipients under age 18 who had been receiving SSI for at least 4 years
    (childhood CDR cases) and

•   52,073 recipients who were at least age 20 and were receiving SSI before their 18th
    birthday (age 18 redetermination cases).

For each group of recipients, we selected a random sample of 275 cases—for a total of
550 cases. See Appendix B for more information on our scope, methodology, and
sample results.




4
 SSA OIG, Childhood Continuing Disability Reviews and Age 18 Redeterminations (A-01-06-21093),
December 2006.
5
  We used the same definition of timely for this follow-up review as we did for our December 2006 audit.
We considered a childhood CDR timely if SSA completed it within 12 months after the scheduled review
date. Additionally, we considered an age 18 redetermination timely if SSA completed it before the
recipient attained age 20.
Page 3 - The Commissioner


For FY 2009, SSA estimated that the CDR process yielded a savings-to-cost ratio of
roughly $12.50 to $1. This savings-to-cost ratio encompasses all CDRs—under both
the SSI and Old-Age, Survivors and Disability Insurance programs—as well as
age 18 redeterminations. 6

RESULTS OF REVIEW
During this follow-up review, we determined that SSA had not completed all childhood
CDRs and age 18 redeterminations in a timely manner. Based on our sample results,
SSA did not complete 79 percent of childhood CDRs and 10 percent of
age 18 redeterminations timely. As a result, we estimate:

•     SSA paid about $1.4 billion in SSI payments to approximately 513,300 recipients
      under age 18 that it should not have paid. 7 Additionally, SSA will continue paying
      approximately $461.6 million annually until these reviews are completed. 8

•     SSA improperly paid about $5.7 million in SSI payments to approximately
      5,100 recipients who did not have an age 18 redetermination completed by age 20.
      Additionally, the Agency will continue paying approximately $6.3 million annually
      until these reviews are completed.

CHILDHOOD CDRs

Table 1 shows the results of the 275 sample cases we reviewed.

                                Table 1: Childhood CDRs
                 Results of Childhood CDRs        Recipients                   Percent
               CDRs not completed timely              216                       78.5%
               CDRs not due as of April 2011           58                       21.1%
               CDRs completed timely                    1                        0.4%
                            Total                     275                      100.0%



6
    SSA, Annual Report of CDRs, Fiscal Year 2009, issued February 15, 2011, page 6.
7
 SSA, Annual Report of the SSI Program, August 19, 2010, pages 97 and 98, the lowest annual
cessation rates after all appeals between FYs 2005 through 2009 were 13.1 percent for childhood CDRs
and 29.2 percent for age 18 redeterminations. Therefore, throughout our report, we counted only
13.1 percent of the dollars related to childhood CDRs that were not completed and 29.2 percent of the
dollars related to age 18 redeterminations that were not completed. (See Appendix B for additional
details on our methodology.)
8
  Our projections for the childhood CDR cases are substantially higher than our 2006 review, as SSA did
not initiate CDRs for 201 of our sample CDR cases. In Appendix C, we compare the 275 sample cases
from our current review to the sample cases in our 2006 review.
Page 4 - The Commissioner


Of the 216 CDRs not completed timely,
•    201 were never initiated; 9
•    7 had been initiated but not completed as of April 2011; and
•    8 were completed more than 1 year after the scheduled review date—6 had benefits
     continued and 2 had benefits ceased.

Since the Agency did not complete the CDRs timely, SSA paid about $583,700 that it
should not have paid. 10 Additionally, SSA will continue paying the 208 recipients who
did not have CDRs initiated or completed about $194,200 annually until the CDRs are
finished. Examples of childhood CDRs not completed timely include the following.

•    SSA scheduled a 12-year-old recipient diagnosed with speech and language delays
     for a disability review in January 2008. SSA did not initiate the CDR until
     March 2011—more than 3 years after the scheduled CDR date. As of April 2011,
     the CDR was still pending a decision. Since February 2009 (1 year after the
     scheduled CDR date), SSA paid this recipient $15,800. Additionally, the Agency will
     continue to pay this recipient about $6,900 over the next year.

•    SSA scheduled a 15-year-old recipient diagnosed with attention deficit disorder for a
     CDR in May 2007. As of April 2011, SSA had not initiated the CDR. Since
     June 2008 (1 year after the scheduled CDR date), SSA paid this recipient about
     $26,500. Additionally, the Agency will continue paying this recipient about
     $8,800 over the next year.

Table 2 shows the timeframe from the scheduled childhood CDR date through the
earlier of the CDR completion date or April 2011.
                      Table 2: Childhood CDRs – Aging Schedule
                         Timeframe            Recipients   Percent
                5 or more years                   63        29.2%
                4 years but less than 5 years     48        22.2%
                3 years but less than 4 years     51        23.6%
                2 years but less than 3 years     30        13.9%
                Less than 2 years                 24        11.1%
                             Total               216       100.0%


9
 For two of these cases, SSA did not initiate a childhood CDR; however, the Agency initiated an
age 18 redetermination for each case in 2011, and both were pending as of April 2011. One recipient
should have had a childhood CDR initiated in June 2005 and the other in December 2006.
10
  Of 216 CDRs that were not completed timely, we did not count dollars for 7 cases—6 continuances and
1 cessation case that was later overturned on appeal. SSA paid the remaining 209 recipients from
1 month to almost 8 years (with a median of almost 3 years) after the Agency should have completed the
childhood CDRs.
Page 5 - The Commissioner


SSA cited budget constraints, staffing, and capacity issues in the disability
determination services for why the Agency had not initiated the CDRs. Additionally, for
the reviews initiated but not completed timely, SSA cited field office errors and delays
because of other priority workloads and failure to cooperate by the recipient’s
representative payee. 11

See Appendix C for a comparison of childhood CDRs in our current review and our
December 2006 report.

AGE 18 REDETERMINATIONS

Table 3 shows the results of the 275 sample cases we reviewed.

                         Table 3: Age 18 Redeterminations
          Results of Age 18 Redeterminations     Recipients                         Percent
         Reviews completed timely                     248                            90.2%
         Reviews not completed timely                  27                             9.8%
                          Total                       275                           100.0%

Of the 27 age 18 redeterminations not completed timely,
•    17 had been initiated but not completed as of April 2011, 12 and
•    10 were completed after the recipient’s 20th birthday—4 had benefits continued and
     6 had benefits ceased.

Since SSA did not complete these reviews timely, the Agency paid about $30,100 that it
should not have paid. 13 Additionally, SSA will continue paying the 17 recipients who did
not have reviews completed about $33,200 annually until the reviews are finished.

For example, a recipient diagnosed with an intellectual disability started receiving
benefits in 2003 at age 12. 14 SSA initiated an age 18 redetermination in March 2008—
2 months before the recipient attained age 18. As of April 2011, the review was still
pending because of a field office error, and the child moved three times during the

11
  A representative payee is a person, agency, organization, or institution selected to receive and manage
benefits on behalf of a recipient who cannot manage or direct the management of his or her finances
because of age, mental, and/or physical impairments. Social Security Act §§ 205(j) and 1631(a),
42 U.S.C. §§ 405(j) and 1383(a), and 20 C.F.R. §§ 404.2001-2065 and 416.601-665.
12
  For four of these reviews, SSA stopped the age 18 redetermination without deciding whether to
continue paying benefits.
13
   Of the 27 age 18 redeterminations not completed timely, we did not count dollars for the 4 cases in
which the decision of the review was a continuance. The remaining 23 recipients were paid from 1 month
to 14 months (with a median of 6 months) after the reviews should have been completed.
14
  In accordance with Pub. L. No. 111-256, 124 Stat.2643-2645 (October 2010), the term “intellectual
disability” replaces the term “mental retardation.”
Page 6 - The Commissioner


review process. This recipient had received about $8,400 since her 20th birthday.
Additionally, the Agency will continue paying this recipient about $9,100 over the next
year.

SSA stated it did not complete the reviews because of (1) field office error; (2) budget
constraints; (3) recipients moving during the review process; (4) fugitive felon issues
involving recipients; and (5) failure to cooperate with SSA.

SPECIAL FUNDING FOR CDR WORKLOAD

In December 2006, we issued our prior review and recommended that SSA continue
seeking special funding for CDR workloads. Since that time, SSA has requested
special funding for the CDR workload for Fiscal Years (FY) 2009 through 2012. 15
Table 4 shows the amount requested and received for these years. (The special
funding SSA receives is for all CDRs, which includes adult CDRs as well as childhood
CDRs and age 18 redeterminations.)

Although SSA received additional funding, the number of childhood CDRs conducted in
FY 2009 as compared to FY 2005 declined 83 percent. 16 However, the number of
age 18 redeterminations SSA conducted increased by 83 percent. 17

                        Table 4: Special Funding for CDR and
                             Redetermination Workloads
                     FY          Requested            Received
                    2009         $240,000,000        $240,000,000
                    2010         $485,000,000        $485,000,000
                    2011         $513,000,000        $484,030,000
                  Sub-Total    $1,238,000,000      $1,209,030,000
                    2012         $623,000,000     To be determined 18
                    Total      $1,861,000,000




15
  SSA did not request special funding in FY 2008, as the budget for FY 2008 was submitted in
February 2007, which was only a couple months after we issued our report.
16
 In FY 2005, SSA conducted 61,387 childhood CDRs compared to only 10,637 conducted in FY 2009.
SSA, Annual Report of the SSI Program, August 19, 2010, page 97.
17
  In FY 2005, SSA conducted 55,331 age 18 redeterminations, and in FY 2009, the number of these
reviews increased to 100,986. SSA, Annual Report of the SSI Program, August 19, 2010, page 97.
18
   As of August 2011, Congress had not acted on the FY 2012 request. Therefore, SSA does not know if
it will receive the special CDR funding it requested.
Page 7 - The Commissioner


Furthermore, Table 5 shows the number of childhood CDRs and
age 18 redeterminations conducted from FY 2000 to May 2011. 19

                Table 5: Childhood CDRs and Age 18 Redeterminations
                                     Conducted
                                  Childhood
                    FY                        Age 18 Redeterminations
                                    CDRs
                   2000            140,699              51,713
                   2001              95,835             48,944
                   2002            163,768              54,947
                   2003            127,444              53,905
                   2004            103,437              53,232
                   2005              61,387             55,331
                   2006              19,384             40,640
                   2007               4,440             71,359
                   2008               4,707             69,430
                   2009              10,637            100,986
                   2010              16,677             87,310
                   2011              18,679             64,182
                 (through May)
            Total                         767,094                    751,979

Overall, SSA has decreased the number of childhood CDRs conducted since FY 2000.
However, the number has been steadily increasing since FY 2009, which was the first
year since our last review that SSA received special funding. As of May 2011, the
Agency surpassed the number of childhood CDRs conducted in FY 2010.

CONCLUSION AND RECOMMENDATION
Overall, SSA did not comply with the childhood CDR and age 18 redetermination
provisions in the Social Security Act, which require these reviews within specific
timeframes. Based on our sample results, the Agency did not complete 79 percent of
childhood CDRs and 10 percent of age 18 redeterminations timely.

CDRs and redeterminations are key activities in ensuring the integrity of the SSI
program and maintaining and improving payment accuracy. By conducting these
reviews timely, SSA can identify recipients no longer eligible to receive disability
benefits and stop their payments, thus protecting taxpayer dollars.




19
  SSA, Annual Report of Continuing Disability Reviews, FYs 2000 through 2009. SSA’s Office of Quality
Performance provided the information for FYs 2010 and 2011.
Page 8 - The Commissioner


According to SSA, budget constraints and other priority workloads have forced the
Agency to shift focus from conducting childhood CDRs and age 18 redeterminations.
However, the Agency should make every effort to complete these reviews when they
come due, to comply with the provisions of the Social Security Act.

We recommend SSA conduct childhood CDRs and age 18 redeterminations within the
specific timeframes provided for in the Social Security Act.

AGENCY COMMENTS
SSA agreed to conduct childhood CDRs and age 18 redeterminations as its budget and
other priority workloads will allow. (See Appendix D.)




                                      Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology, and Sample Results

APPENDIX C – Comparison of Sample Cases for Childhood Continuing Disability
             Reviews from Current Review to Prior Review

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                         Appendix A

Acronyms
CDR    Continuing Disability Review
FY     Fiscal Year
OIG    Office of the Inspector General
SSA    Social Security Administration
SSI    Supplemental Security Income
                                                                       Appendix B

Scope, Methodology, and Sample Results
To accomplish our objective, we:

 Reviewed applicable sections of the Personal Responsibility and Work Opportunity
  Reconciliation Act of 1996 (Public Law 104-193, 110 Stat. 2105), the Social Security
  Act, and Social Security Administration (SSA) regulations, rules, policies, and
  procedures.

 Reviewed a prior Office of the Inspector General report.

 Obtained a file of all Supplemental Security Income (SSI) recipients who were under
  age 21 and receiving benefits in January 2011. We tested the data obtained for our
  audit for accuracy and completeness and determined them to be sufficiently reliable
  to meet our audit objectives. From this file, we identified 2 populations:

      •   653,478 recipients under age 18 with a date of birth after April 1, 1993 and an
          application date of January 1, 2007 or earlier (childhood continuing disability
          review [CDR] cases).

      •   52,073 recipients over age 18 with a date of birth between January 1, 1990
          and December 31, 1990 (age 18 redetermination cases).

  For each population, we selected a random sample of 275 cases—for a total of
  550 cases—and projected our sample results to each population.

  For the childhood CDR cases, we determined whether SSA completed a CDR timely.
  Specifically, we:

      1. Reviewed SSA’s systems, including the Supplemental Security Record,
         Disability Control File, and Disability Determination Service Query to obtain
         each individual’s scheduled disability review date. If the scheduled disability
         review date was unavailable, we used 3 years after the most recent
         determination, which could have been an allowance or CDR continuance.

      2. Determined whether SSA completed the childhood CDRs timely (no later than
         12 months after the individual’s scheduled disability review date).

  For age 18 redetermination cases, we determined whether SSA completed a
  redetermination timely (by the recipient’s 20th birthday).




                                           B-1
     Referred cases to SSA in which childhood CDRs and age 18 redeterminations were
      not initiated, were still pending, or were stopped without a decision to determine why
      these reviews were not completed.

     Quantified for each sample case:

         1. The amount of SSI payments issued because SSA did not complete a
            childhood CDR timely. Specifically, we quantified:

              a. The amount of SSI payments issued between the 1-year anniversary of
                 the scheduled disability review date and the earlier of the month of
                 cessation or April 2011 (the date we reviewed the case).

              b. The amount of SSI payments the Agency could have continued to pay
                 over a 12-month period when a CDR was not completed. To calculate this
                 amount, we multiplied the amount of the April 2011 payment by 12.

         2. The amount of SSI payments issued because SSA did not complete an
            age 18 redetermination timely. Specifically, we quantified:

              a. The amount of SSI payments issued between the date the individual
                 turned 20 and the earlier of the month of cessation or April 2011 (the date
                 we reviewed the case).

              b. The amount of SSI payments the Agency could have continued to pay
                 over a 12-month period when an age 18 redetermination was not
                 completed. To calculate this amount, we multiplied the amount of the
                 April 2011 payment by 12.

     Obtained disability cessation rates resulting from childhood CDRs and age
      18 redeterminations from the SSI annual report. 1 The lowest annual cessation rates
      after all appeals between Fiscal Years 2005 through 2009 were 13.1 percent for
      childhood CDRs and 29.2 percent for age 18 redeterminations. See the tables on
      the following page.




1
    SSA, Annual Report of the Supplemental Security Income Program, August 2010, pages 97 and 98.


                                                  B-2
                                         Childhood CDRs
                                                Cessations
                        FY        Total CDRs     After All                Percent
                                                 Appeals 2
                       2005          61,387       11,855                    19.3%
                       2006          19,384         3,716                   19.2%
                       2007            4,440          910                   20.5%
                       2008            4,707          833                   17.7%
                       2009          10,637         1,392                   13.1%


                                     Age 18 Redeterminations
                                               Cessations
                                      Total
                        FY                       After All                Percent
                                    Reviews
                                                 Appeals
                       2005           55,331       18,636                   33.7%
                       2006           40,640       14,890                   36.6%
                       2007           71,359       26,508                   37.1%
                       2008           69,430       24,091                   34.7%
                       2009          100,986       29,504                   29.2%

   Reduced calculations by the appropriate cessation rates for those sample cases
    where childhood CDRs or age 18 redeterminations were not completed.

   Projected sample results to each population.

We conducted our audit between April and May 2011 in Boston, Massachusetts. The
entities audited were the Offices of Disability Programs under the Deputy Commissioner
for Retirement and Disability Policy and Disability Determinations under the Deputy
Commissioner for Operations. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




2
 The cessation rates after all appeals will likely increase in the future as appeals currently pending are
completed.


                                                    B-3
SAMPLE RESULTS AND PROJECTIONS

                         Table B-1: Childhood CDRs
           Population size                         653,478
           Sample size                                 275


            Table B-2: Payments Issued Because SSA Did Not
                      Complete Childhood CDRs Timely
           Sample results                         $583,661
           Point estimate                   $1,386,944,460
           Projection lower limit           $1,271,943,867
           Projection upper limit           $1,501,945,052
          Note: All projections are at the 90-percent confidence level.



           Table B-3: Payments SSA Could Potentially Save by
                   Completing All Childhood CDRs Timely
           Sample results                          $194,246
           Point estimate                      $461,584,123
           Projection lower limit              $431,984,473
           Projection upper limit              $491,183,772
          Note: All projections are at the 90-percent confidence level.



            Table B-4: Childhood CDRs Not Completed Timely
           Sample cases                              216
           Point estimate                        513,277
           Projection lower limit                484,038
           Projection upper limit                539,469
          Note: All projections are at the 90-percent confidence level.



                    Table B-5: Age 18 Redeterminations
           Population size                           52,073
           Sample size                                  275




                                            B-4
  Table B-6: Payments Issued Because SSA Did Not
       Complete Age 18 Redeterminations Timely
 Sample results                          $30,059
 Point estimate                       $5,691,874
 Projection lower limit               $3,518,909
 Projection upper limit               $7,864,839
Note: All projections are at the 90-percent confidence level.



 Table B-7: Payments SSA Could Potentially Save by
    Completing All Age 18 Redeterminations Timely
 Sample results                           $33,168
 Point estimate                        $6,280,643
 Projection lower limit                $3,689,376
 Projection upper limit                $8,871,909
Note: All projections are at the 90-percent confidence level.



        Table B-8: Age 18 Redeterminations Not
                     Completed Timely
 Sample cases                                  27
 Point estimate                             5,113
 Projection lower limit                     3,660
 Projection upper limit                     6,913
Note: All projections are at the 90-percent confidence level.




                                  B-5
                                                                                 Appendix C

Comparison of Sample Cases for Childhood
Continuing Disability Reviews from Current
Review to Prior Review
Table C-1 shows the results of the 275 childhood continuing disability review (CDR)
cases analyzed in our current review as compared to the 275 childhood CDR cases
analyzed for our prior review in 2006. 1

                      Table C-1: Childhood CDRs – All Sample Cases
                                           Current 2011                    Dec. 2006
      Results of Childhood CDRs                               Percent                  Percent
                                             Review                         Review
    CDRs not completed timely                     216         78.5%            106      38.5%
    CDRs not due at time of review                 58         21.1%             44      16.0%
    CDRs completed timely                           1          0.4%            125      45.5%
    Total                                         275        100.0%            275     100.0%

Table C-2 further breaks out the 216 and 106 childhood CDR cases SSA did not
complete timely from our reviews. As shown below, the number of CDRs not initiated
was 55 in the prior audit and 201 in the current audit—an increase of almost four times
the amount. This difference in CDRs not initiated explains the substantial increase in
our projection dollars as we calculated payments made to recipients for CDRs not
completed. See Appendix B for our methodology.

                          Table C-2: Childhood CDRs Not Timely
                                                      Current  Prior
                      Results of Childhood CDRs
                                                      Review Review
                  CDRs not initiated                   201       55
                  CDRs initiated but not completed at
                  time of our review                      7       7
                  CDRs completed more than a year
                  after scheduled CDR date                8      44
                  Total                                216      106




1
 SSA, Office of the Inspector General, Childhood Continuing Disability Reviews and
Age 18 Redeterminations (A-01-06-21093), December 2006.
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY
Date:      September 14, 2011                                                     Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Follow-up: Childhood Continuing Disability
           Reviews and Age 18 Redeterminations”(A-01-11-11118)—INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord, at (410) 966-5787.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “FOLLOW-UP: CHILDHOOD CONTINUING DISABILITY REVIEWS AND
AGE 18 REDETERMINATIONS” (A-01-11-11118)

Recommendation

Conduct childhood continuing disability reviews (CDRs) and age 18 redeterminations within the
specific timeframes provided for in the Social Security Act.

Response

We agree. We will conduct childhood CDRs and age 18 redeterminations as our budget and our
other priority workloads will allow.




                                             D-2
                                                                     Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Frank Salamone, Senior Auditor

   Katie Greenwood, Senior Auditor

   Kevin Joyce, IT Specialist

   Michael Atherton, IT Specialist

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-11-11118.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
